ORANGE COUNTY’S CREDIT UNION
IMPORTANT INFORMATION ABOUT YOUR MASTERCARD ® PLATINUM CREDIT CARD
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Annual Percentage Rate (APR) for
Balance Transfers
Annual Percentage Rate (APR) for
Cash Advances
How to Avoid Paying Interest on
Purchases
For Credit Card Tips from the
Consumer Financial Protection
Bureau
Fees
Annual Fee
Transaction Fees
• Balance Transfer

0% introductory APR for the first 6 months that your account is open.
After that your APR will be 10.49% to 18.49% based on your
creditworthiness. The APR will vary with the market based on Prime
rate.
0% introductory APR for the first 6 months that your account is open.
After that your APR will be 10.49% to 18.49% based on your
creditworthiness. The APR will vary with the market based on the
Prime Rate.
20.49%
This APR will vary with the market based on the Prime Rate.
Your due date is 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance
by the due date each month.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at:
http://www.consumerfinance.gov/learnmore
None
$0 Introductory Fee for Balance Transfers made in the first 6 months
that your account is open. After that your fee will be 2.00% of the
amount of the Balance Transfer, but not less than $5.00 nor greater than
$50.00 per Balance Transfer.

• Cash Advances

2.00% of the amount of the Cash Advance, but not less than $5.00 nor
greater than $50.00 per Cash Advance.

• Foreign Transactions
Penalty Fees
• Late Payment

1.00% of each foreign transaction in U.S. Dollars.

• Returned Payment

Up to $25.00.

Up to $7 if the Minimum Payment Due is not paid within 5 days of the
Payment Due Date.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (Including Current
Transactions).”
The information about the costs of the card described in this application is accurate as of January 1, 2019. This
information may have changed after that date. To find out what may have changed, call us at (888) 354-6228.

Takeone 01-01-2019
1009 10 003

